No. 20-88

In the Supreme Court of the United States
HZNP Finance Limited,
Horizon Therapeutics USA, Inc.,

Petitioners,
v.
Actavis Laboratories UT, Inc.,

Respondent.
PROOF OF SERVICE
I hereby certify that on September 30, 2020, I caused three copies of the Brief
in Opposition for Respondent Actavis Laboratories UT, Inc. to be served by regular
mail and electronic mail to the counsel of record listed below.
Robert F. Green
Caryn C. Borg-Breen
Jessica Tyrus Mackay
Benjamin D. Witte
GREEN, GRIFFITH & BORG-BREEN LLP
City Place
676 North Michigan Avenue, Suite 3900
Chicago, IL 60611
(312) 883-8000

Counsel for Petitioners
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on the 30th day of September 2020.
/s/ J.C. Rozendaal
J.C. ROZENDAAL
STERNE, KESSLER, GOLDSTEIN & FOX, PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Respondent
Actavis Laboratories UT, Inc.

